WAIVER -

SUPREME COURT OF THE UNITED STATES

No. 20-1384

Amy Everett Cobb County, Georgia, et al. |
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO lam filing this waiver on behalf of all respondents.

ent some re:

 

© Tonly repre!
Cobb County | Georgia and Officer James W. Hopkins, in his Individual and Official Capacity

 

ondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: Apia Z _|

Date: ai2i2t

(Type or print) Name Laura Joan Murphree |
O mr. © Ms. O Mrs. O Miss
Firm Cobb County Attorney's Office

 

   

Address ‘100 Cherokee Street, Suite 350
City & State Marietta, GA Zip 30090
Phone 7705283871 | Email Jaura.murphree@cobbcounty.org

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

 

r. John Batson
04 Millegege Road
ugusta, GA 30904

   
